No.

 

IN THE SUPREME COURT OF THE UNITED STATES
KAUFMAN COUNTY; MATTHEW HINDS, PETITIONERS
v.

EUNICE J. WINZER, Individually and on Behalf of
the Statutory Beneficiaries of Gabriel A.

Winzer; SOHELIA WINZER; HENRY WINZER,
RESPONDENTS

CERTIFICATE OF COMPLIANCE WITH WORD-COUNT
LIMITATIONS

As required by Supreme Court Rule 33.1(h), I certify

that the petition for a writ of certiorari contains ©, +G
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing

is true and correct.
( & 4g
ae) Ab

S. Cass Weiland

      
